June 2, 2008
  AUDIT REPORT




                                                      OFFICE OF AUDITS




   ACTIONS NEEDED TO ENSURE SCIENTIFIC AND
TECHNICAL INFORMATION IS ADEQUATELY REVIEWED
  AT GODDARD SPACE FLIGHT CENTER, JOHNSON
 SPACE CENTER, LANGLEY RESEARCH CENTER, AND
        MARSHALL SPACE FLIGHT CENTER




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-08-017 (ASSIGNMENT NO. A-06-026-00)
Final report released by:


   signed

Evelyn R. Klemstine
Assistant Inspector General for Auditing




Acronyms

CASI         Center for AeroSpace Information
CIO          Chief Information Officer
FY           Fiscal Year
GAO          Government Accountability Office
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
STI          Scientific and Technical Information
STIPO        Scientific and Technical Information Program Office


                                                                   REPORT NO. IG-08-017
June 2, 2008




                                                                                           OVERVIEW

      ACTIONS NEEDED TO ENSURE SCIENTIFIC AND TECHNICAL
       INFORMATION IS ADEQUATELY REVIEWED AT GODDARD
      SPACE FLIGHT CENTER, JOHNSON SPACE CENTER, LANGLEY
      RESEARCH CENTER, AND MARSHALL SPACE FLIGHT CENTER

                                                                                             The Issue

  This audit was initiated in response to a hotline complaint regarding the review, approval,
  and release of scientific and technical information (STI) at Johnson Space Center. The
  complainant alleged that Johnson personnel conducting export control reviews of STI
  were not fully qualified to conduct those reviews and that the reviews often did not occur
  until after the STI had been publicly released. NASA guidance requires that STI, defined
  as the results of basic and applied scientific, technical, and related engineering research
  and development, undergo certain reviews prior to being released outside of NASA or to
  audiences that include foreign nationals. The process includes technical, national
  security, export control, copyright, and “trade secret” (e.g., proprietary data) reviews. The
  review process was designed to preclude the inappropriate dissemination of sensitive
  information while ensuring that NASA complies with a requirement of the National
  Aeronautics and Space Act of 1958 (the Space Act) 1 to “provide for the widest practicable
  and appropriate dissemination” of information resulting from NASA research activities.

  We focused our audit on evaluating the STI review process: specifically, determining
  whether the roles and responsibilities for the review, approval, and release of STI were
  adequately defined and documented in NASA and Center-level guidance and whether
  that guidance was effectively implemented at Goddard Space Flight Center, Johnson
  Space Center, Langley Research Center, and Marshall Space Flight Center. Johnson was
  included in the review because it was the source of the initial complaint, and Goddard,
  Langley, and Marshall were included because those Centers consistently produce
  significant amounts of STI.

  On September 29, 2006, the Office of Inspector General (OIG) received a request from
  14 U.S. Senators to investigate allegations that NASA was suppressing the release of
  scientific research and censoring its scientists. The OIG’s Office of Investigations
  initiated an administrative investigation to address the specific complaints cited in the

  1
      The Space Act established NASA as the civilian agency with the responsibility of exercising control over
      aeronautical and space activities sponsored by the United States, except for those activities primarily
      associated with the development of weapons systems, military operations, or the defense of the United
      States.



REPORT NO. IG-08-017
                                                                                                           OVERVIEW



     request, which were the alleged suppression of individual scientists to express their views
     through public appearances or through NASA-sponsored press releases. The results of
     that administrative investigation were reported to Congress separately. This audit does
     not address the specific allegations cited in the congressional request of individual
     scientists who claimed their research was suppressed. Instead, because the release of
     scientific research is contingent upon NASA’s STI review process, we expanded the
     scope of our audit to determine whether the STI review process was used as a means to
     suppress the release of scientific research at Goddard, Johnson, Langley, and Marshall.
     Details of the audit’s scope and methodology are in Appendix A.

     Results

     The roles and responsibilities for the review, approval, and release of NASA STI were
     adequately defined and documented in NASA guidance; however, that guidance had not
     been effectively implemented at Goddard, Johnson, Langley, and Marshall. NASA
     Procedural Requirements (NPR) 2200.2B, “Requirements for Documentation, Approval,
     and Dissemination of NASA Scientific and Technical Information,” March 25, 2005,
     states that only STI that has been reviewed for technical accuracy and conformance with
     applicable law, policy, and publication standards may be publicly released. Out of the
     4,702 STI items included in our review at Goddard, Johnson, Langley, and Marshall, we
     identified 413 STI items 2 that had been publicly released during fiscal year (FY) 2005
     and FY 2006 without the required reviews. Of those 413 items, 363 were released prior
     to completion of the review process, 19 were released after rejection by one or more of
     the reviewing authorities, 3 and 31 were never submitted for review.

     Although none of the 413 STI items that we identified were of a restricted nature (for
     example, export-controlled or classified), each time STI is released without the required
     review, the risk of releasing restricted or otherwise sensitive information is increased.
     The STI authors at Goddard, Johnson, Langley, and Marshall provided various reasons as
     to why they released STI without the required reviews. The most common reason
     provided was that because the Agency did not notify the authors whether the STI had
     been approved or rejected for release, the authors released STI assuming that the review
     was complete and the approval had been granted. Other authors stated that they were
     unaware of, had forgotten about, or had never been trained on the NPR requirement.

     2
         The actual number of STI items released without the required reviews could be much higher than 413.
         Our sampling methodology, which is discussed in detail in Appendix A, did not allow us to project our
         results from Johnson or Langley. In addition, we identified the 31 STI never submitted for review by
         searching NASA conference Web sites for STI that was presented at the conference. Our search for
         unreviewed STI did not include Web sites for conferences that NASA scientists may have attended but
         which were not NASA or NASA-sponsored conferences. We also did not search scientific journals or
         other media for unreviewed STI. Had we done so, we may have identified additional unreviewed STI.
     3
         Although releasing STI after it was “rejected for release” implies that restricted or sensitive STI may have
         been inappropriately released, the 19 STI were generally rejected for minor clerical or technical errors
         that did not impact the overall content or message of the STI. We did not identify any STI that was
         rejected for release because the STI was of a sensitive nature.



ii                                                                                          REPORT NO. IG-08-017
OVERVIEW



  Although we could not specifically validate the authors’ level of awareness, none of the
  four Centers had active programs designed to educate new employees or to periodically
  brief existing employees about the STI review requirement.

  The effectiveness of NASA’s STI review process could be improved if STI authors are
  timely notified of the results of the STI review and if NASA took steps to ensure STI
  authors are aware of their responsibilities under NPR 2200.2B. Those actions would
  remove uncertainty from the process and further reduce NASA’s risk of inappropriately
  releasing restricted or sensitive STI.

  The risk of inappropriately releasing restricted or sensitive STI could be further reduced
  if the STI Program Office monitored the effectiveness of the STI review process. NASA
  Policy Directive (NPD) 2200.1, “Management of NASA Scientific and Technical
  Information (STI),” March 28, 2003, requires that the Program Office monitor certain
  elements of the STI Program, such as the quantity of STI received by NASA and the use
  of that STI by NASA and non-NASA personnel. However, the guidance does not require
  that the effectiveness of the STI review process be monitored. Such monitoring would
  enable the Agency to take immediate corrective action if any problem areas are
  identified.

  The ability of the STI Program Office to monitor the effectiveness of the STI review
  process could be improved if the process was automated Agency-wide. Two of the four
  Centers we visited (Johnson and Langley) used automated systems to track STI
  throughout the review process, while the other two Centers (Goddard and Marshall) used
  a paper-based process. The automated systems provided STI managers with more
  comprehensive and timely data when compared with the paper-based systems.
  Implementation of an Agency-wide automated system would improve the STI Program
  Office’s ability to monitor the effectiveness of the STI review process by providing more
  complete and accurate data.

  We found no evidence while conducting our audit that the STI review process was used
  as a means to suppress scientific research at Goddard, Johnson, Langley, and Marshall.
  Because the STI reviewing authorities could use the review process to suppress the
  results of scientific research by rejecting certain STI for public release, we surveyed
  287 NASA STI authors concerning rejected STI. We also conducted further analysis of
  the 19 STI that we identified as having been rejected in FY 2005 and FY 2006 to
  consider whether STI on a specific subject matter or by an individual author had been
  disproportionately rejected.

  We asked the 287 STI authors whether they had ever had an STI item rejected for public
  release and, if so, whether they agreed with the reason for rejection. We received
  responses from 264 authors (a 92 percent response rate), of whom 96 reported that their
  STI had been rejected for release. All 96 authors told us the STI was rejected because of
  errors on the submission form or the need to make minor technical revisions to the STI.
  Although 13 of the authors disagreed with the reason for rejection, those disagreements


REPORT NO. IG-08-017                                                                           iii
                                                                                                      OVERVIEW



     were based on the STI review process itself (for example, the process took too long, the
     submission form was difficult to understand) or writing style differences between an
     author and the reviewing authorities. None of the authors reported that they believed the
     reviewing authority had rejected the STI in an attempt to suppress the results of their
     research. 4 In addition, our analysis of the 19 STI items rejected in FY 2005 and FY 2006
     at Goddard, Johnson, Langley, and Marshall did not identify any disproportionate
     rejections by subject matter or author.

     Management Action

     To improve the effectiveness of NASA’s STI review process and thereby reduce the risk
     of releasing restricted or sensitive STI, our March 6, 2008, draft of this report contained a
     recommendation that the Center Directors at Goddard, Johnson, Langley, and Marshall
     develop and implement a plan to increase employee awareness of the STI review process.
     We also recommended that the NASA Chief Information Officer (CIO) revise the
     relevant NPR and NPD to require that Center STI Managers timely notify authors when
     STI is approved or rejected for release, require that authors not release STI until they
     receive that notification, and establish an additional performance measure for monitoring
     the effectiveness of the STI review process.

     In a consolidated response to the draft of this report (see Appendix C), management
     concurred with our recommendations and described actions to be taken by the Centers to
     increase awareness of STI review requirements. Goddard planned an outreach initiative
     in April 2008 and Johnson plans to distribute articles on STI review requirements with a
     Web site link to an educational presentation on STI review requirements. Langley plans
     to provide new employees with presentations on STI requirements, and Marshall plans to
     insert quarterly notices in the Center newsletter.

     In response to our recommendations to revise the NPR and NPD, the CIO stated that
     NASA would issue an interim directive by October 7, 2008, that will require timely
     notification of authors, reinforce the requirement to review STI before its release, and
     institute a performance measure for monitoring the effectiveness of the STI review
     process. The interim directive will remain in effect until NPR 2200.2B and NPD 2200.1
     are revised.

     We consider management’s proposed actions to be responsive and no additional
     comments on these recommendations are necessary. The recommendations are resolved
     and will be closed after we verify that all actions have been completed.


     4
         A review published by the Government Accountability Office (GAO), “Federal Research: Policies
         Guiding the Dissemination of Scientific Research from Selected Agencies Should Be Clarified and Better
         Communicated” (GAO-07-653, May 2007), reported that NASA dissemination policies could be better
         communicated. GAO estimated that 91 percent of NASA researchers believe that the Agency supports
         dissemination of research results through publications.



iv                                                                                      REPORT NO. IG-08-017
OVERVIEW



  Although this report concludes that an automated STI tracking system would better
  facilitate data collection for monitoring the effectiveness of the STI review process, we
  did not make a recommendation concerning an automated system in the draft report
  because the STI Program Office had requested “overguidelines” funding 5 in FY 2009 for
  the deployment, maintenance, and implementation of an Agency-wide automated
  STI tracking system. However, while we were preparing the final report, the STI
  Program Office informed us that the CIO had denied that funding request. We believe
  that deployment of an automated STI tracking system is critical to ensuring that the STI
  Program Office and the Center STI Managers have the data needed to effectively monitor
  the STI review process and decrease the number of NASA STI items released without
  proper review. Therefore, we have added a recommendation to this report
  (Recommendation 4) that the CIO determine how best to attain the intended benefits of
  an Agency-wide automated STI tracking system and provide an appropriate plan of
  action. We request that the CIO provide comments on the added recommendation by
  July 1, 2008.




  5
      According to NASA management, overguidelines funding refers to funds that are above existing program
      financial guidelines.



REPORT NO. IG-08-017                                                                                         v
June 2, 2008




                                                        CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 3

  RESULTS
      STI Released without Required Review _____________________ 4

  APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls _____________________________ 17
      Prior Coverage_______________________________________ 17

  APPENDIX B
      NASA Form 1676 _____________________________________ 18

  APPENDIX C
      Management Comments _______________________________ 22

  APPENDIX D
      Report Distribution ___________________________________ 29




REPORT NO. IG-08-017
June 2, 2008




                                                                      INTRODUCTION


  In January 2006, the Office of Inspector General (OIG) received a hotline complaint
  regarding the review, approval, and release of scientific and technical information (STI)
  at Johnson Space Center. The complainant alleged that Johnson personnel responsible
  for conducting export control reviews of STI were not fully qualified to conduct those
  reviews and that the reviews often did not occur until after the STI had been publicly
  released or otherwise disseminated. NASA guidance requires that STI undergo a series
  of reviews before it can be published or otherwise disseminated outside of NASA. One
  of the reviews required is an export control review.

  During an initial inquiry into the complaint, we determined that Johnson personnel were
  adequately trained to conduct export control reviews; however, we identified potential
  problems within the STI review process. Based on the results of our initial inquiry, we
  initiated this audit of the STI review process in September 2006. In addition to reviewing
  the STI review process at Johnson, we reviewed the process at Goddard Space Flight
  Center, Langley Research Center, and Marshall Space Flight Center, because those
  Centers consistently produce significant amounts of STI.

  On September 29, 2006, the OIG received a request from 14 U.S. Senators to investigate
  allegations that NASA was suppressing the release of scientific research and censoring its
  scientists. The OIG’s Office of Investigations initiated an administrative investigation to
  address the specific allegations cited in the request, the results of which were separately
  reported to Congress. Because the release of scientific research is contingent upon
  successful completion of the STI review process, we expanded the scope of our audit to
  evaluate whether the process was used as a means to suppress the release of scientific
  research at Goddard, Johnson, Langley, and Marshall.


Background

  STI. NASA defines STI as the results (facts, analyses, and conclusions) of basic and
  applied scientific, technical, and related engineering research and development. STI also
  includes relevant management, industry, and economic information. Examples of STI
  produced by NASA include research reports, journal articles, conference proceedings,
  presentations, technical videos, laboratory notes, and scientific and technical operational
  information. NASA researchers, contractors, and grantees use STI to keep abreast of
  national and international advances in science and engineering, to reduce unnecessary
  duplication of effort, and to promote the productivity and cost-effectiveness of NASA
  research activities.




REPORT NO. IG-08-017                                                                            1
                                                                                                  INTRODUCTION



    STI Program. NASA’s STI Program provides for public and internal distribution of
    information produced by and for NASA, fulfilling the requirement of the National
    Aeronautics and Space Act of 1958 (the Space Act) 6 to “provide for the widest
    practicable and appropriate dissemination” of information resulting from NASA research
    activities. To meet that requirement, NASA collects, manages, publishes, and provides
    for long-term retention of STI. NASA provides access to the STI through a database
    containing approximately 4 million citations and an increasing number of full-text digital
    NASA documents. The database, accessible at http://www.sti.nasa.gov, is operated for
    NASA by the Center for AeroSpace Information (CASI), a contractor that acquires,
    organizes, disseminates, and archives the STI.

    The STI Program is responsible for ensuring that NASA protects STI that may contain
    information for which publication or distribution is restricted by law, regulation, or
    policy. This includes STI containing information that is restricted because it is export-
    controlled, classified, proprietary, copyrighted, or patented, as well as information
    protected by the Privacy Act. To preclude the distribution of restricted or sensitive STI,
    authors must submit STI through a review process, which includes reviews for technical
    accuracy, export-controlled information, classified information, copyright violations, and
    proprietary data (i.e., “trade secrets”).

    STI Program Management. NASA’s Chief Information Officer (CIO) is responsible
    for planning and managing the implementation of NASA’s STI Program and assessing its
    effectiveness. The CIO has delegated responsibility for STI policy and program
    operations to the Scientific and Technical Information Program Office (STIPO). STIPO,
    which organizationally reports to the CIO, is located at Langley and has a staff of
    five personnel. STIPO’s specific responsibilities include

           •   developing and implementing policies and procedures for NASA’s STI Program;

           •   operating and managing NASA’s STI Program in accordance with Federal laws
               and regulations and NASA’s policies and procedures;

           •   streamlining Agency and Center processes, procedures, and systems for
               identifying, acquiring, tracking, and disseminating STI; and

           •   overseeing the CASI database.

    Although the CIO is responsible for the overall STI Program, the Center Directors, who
    are organizationally outside of the CIO’s chain of command, are responsible for ensuring
    that Center personnel comply with STI Program guidance. The Center Directors
    designate a Center STI Manager, who is responsible for the STI review process and for

    6
        The Space Act established NASA as the civilian agency with the responsibility of exercising control over
        aeronautical and space activities sponsored by the United States, except for those activities primarily
        associated with the development of weapons systems, military operations, or the defense of the United
        States.



2                                                                                        REPORT NO. IG-08-017
INTRODUCTION



  maintaining records of all Center-produced STI that is released or published external to
  NASA. At the operational level, NASA managers, contracting officers, contracting
  officer’s technical representatives, and authors are responsible for coordinating with
  Center STI Managers to ensure that STI is properly reviewed and approved prior to its
  release.

  STI Guidance. The primary guidance for NASA’s STI Program is NASA Policy
  Directive (NPD) 2200.1, “Management of NASA Scientific and Technical Information
  (STI),” March 28, 2003, and NASA Procedural Requirements (NPR) 2200.2B,
  “Requirements for Documentation, Approval, and Dissemination of NASA Scientific and
  Technical Information,” March 25, 2005. The NASA Centers may issue supplementary
  guidance or implementing instructions based on those documents.


Objectives

  Our overall audit objective was to evaluate NASA’s policies and procedures for the
  review, approval, and release of STI. Specifically, we determined whether the roles and
  responsibilities for the review, approval, and release of STI were adequately defined and
  documented in NASA guidance and whether NASA had effectively implemented that
  guidance at Goddard, Johnson, Langley, and Marshall. We also determined whether the
  STI review process was used as a means to suppress the release of scientific research at
  those four Centers. See Appendix A for details of the audit’s scope and methodology,
  our review of internal controls, and prior coverage.




REPORT NO. IG-08-017                                                                          3
                                                                                                             RESULTS




                                                                       STI RELEASED WITHOUT
                                                                            REQUIRED REVIEW

               The roles and responsibilities for the review, approval, and release of NASA STI
               were adequately defined and documented in NASA guidance; however, that
               guidance had not been effectively implemented at Goddard, Johnson, Langley, and
               Marshall. NPR 2200.2B states that only STI that has been reviewed for technical
               accuracy and conformance with applicable law, policy, and publication standards
               may be publicly released. Out of the 4,702 STI items included in our review at
               Goddard, Johnson, Langley, and Marshall, we determined that STI authors had
               publicly released 413 STI items 7 during fiscal year (FY) 2005 and FY 2006 without
               obtaining the required reviews. Of those 413 items, 363 were released prior to
               completion of the review process, 19 were released after rejection by one or more of
               the reviewing authorities, 8 and 31 were never submitted for review. The STI was
               released without the required reviews because

                    •   Center STI Managers were not required to notify the STI authors as to
                        whether the STI was approved or rejected for release,

                    •   the review requirement was not adequately communicated to Center
                        personnel, and

                    •   STIPO did not monitor the effectiveness of the STI review process.

               Although our audit did not identify any restricted STI that was inappropriately
               released, each time STI is released without the required review, the risk of releasing
               restricted or otherwise sensitive information is increased. More significantly,
               noncompliance could result in the release of restricted STI to prohibited sources,
               including countries or persons, which could negatively impact national security.




    7
        The actual number of STI items released without the required reviews could be much higher than 413.
        Our sampling methodology, which is discussed in detail in Appendix A, did not allow us to project our
        results from Johnson or Langley. In addition, we identified the 31 STI never submitted for review by
        searching NASA conference Web sites for STI that was presented at the conference. Our search for
        unreviewed STI did not include Web sites for conferences that NASA scientists may have attended but
        which were not NASA or NASA-sponsored conferences. We also did not search scientific journals or
        other media for unreviewed STI. Had we done so, we may have identified additional unreviewed STI.
    8
        Although releasing STI after it was “rejected for release” implies that restricted or sensitive STI may have
        been inappropriately released, the 19 STI were generally rejected for minor clerical or technical errors
        that did not impact the overall content or message of the STI. We did not identify any STI that was
        rejected for release because the STI was of a sensitive nature.



4                                                                                          REPORT NO. IG-08-017
RESULTS



Roles and Responsibilities Adequately Defined

  The roles and responsibilities for the review, approval, and release of NASA STI were
  adequately defined and documented in NPD 2200.1 and NPR 2200.2B. NPD 2200.1
  requires NASA to publish, or otherwise release external to NASA, only STI that has been
  reviewed at the appropriate organizational level for technical accuracy and conformance
  with applicable law, policy, and publication standards. The NPD assigns the Center
  Directors the responsibility that STI review and approval is undertaken as appropriate,
  based on the nature of the STI. NPR 2200.2B contains a description of the STI review
  types:

         •    Technical review – performed by peers of the author who have expertise in the
              technical discipline of the research. The review is primarily for technical
              accuracy, quality, and data integrity.

         •    National security review – performed by the original classification authority 9 to
              determine whether the information is subject to security classification.

         •    Export control review – performed by the Center Export Control Administrators
              or their designees to ensure that export-controlled information is not exported or
              disclosed to foreign nationals without proper authority. 10

         •    Copyright review – performed by the Headquarters and Center patent or
              intellectual property counsel to ensure that information is not used or reproduced
              without protecting the exclusive rights reserved by a copyright owner. 11

         •    Proprietary and confidential commercial information review – performed by
              Headquarters and Center patent or intellectual property counsel to ensure that the
              proprietary data is properly identified and marked to indicate restricted
              dissemination.

  The STI Managers are responsible for ensuring that personnel at their Centers are aware
  of the requirements contained in NPD 2200.1 and NPR 2200.2B. STI Managers are also
  responsible for coordinating with program or project managers who approve STI at the
  Centers, and authors of STI, to ensure that STI is reviewed before being published,
  disseminated, or otherwise released external to NASA.


  9
      The original classification authority is the individual authorized in writing, either by the President or by
      agency heads or other senior Government officials designated by the President, to classify information in
      the first instance.
  10
       Department of Commerce’s Export Administration Regulations, 15 Code of Federal Regulations, parts
       730-774, and the Department of State’s International Traffic in Arms Regulations, 22 Code of Federal
       Regulations, parts 120-130, contain the restrictions on the release of export-controlled technology.
  11
       Title 17, United States Code, Chapters 1-13, contain the copyright law that protects the exclusive rights
       reserved by a copyright owner.



REPORT NO. IG-08-017                                                                                                 5
                                                                                         RESULTS



    The STI authors are responsible for initiating the STI review process by completing
    NASA Form 1676, “NASA Scientific and Technical Information (STI) Document
    Availability Authorization (DAA),” or a Center version of that form (see Appendix B for
    a copy of NASA Form 1676). Once all required reviews are completed and the STI is
    approved for full or restricted release, it may be published or presented at a meeting,
    conference, or other forum and is forwarded to CASI to be added to the CASI database.
    If the STI is rejected for release, the author can revise the STI and resubmit it.


Guidance Not Adequately Implemented

    Although NASA’s guidance clearly states that a review is required before STI may be
    publicly released, that guidance was not adequately implemented at Goddard, Johnson,
    Langley, and Marshall. Out of the 4,702 STI items included in our review at those four
    Centers, we determined that STI authors had publicly released 413 STI items during
    FY 2005 and FY 2006 without obtaining the required reviews (Goddard, 123;
    Johnson, 87; Langley, 70; and Marshall, 133). Of the 413 items, 363 were released prior
    to completion of the review process, 19 were released after rejection by one or more of
    the reviewing authorities, and 31 were never submitted for review.

    All four Centers had established an STI review process, and we reviewed each of those
    processes. We were able to review more robust sets of information at Johnson and
    Langley because those Centers had automated their review process. Although
    NPR 2200.2B requires Centers to establish an STI review process, it does not require an
    automated tracking system. The automated systems contained the date the author
    submitted the STI for review, the completion date for each review, whether the reviewer
    approved or rejected the STI for release, and the STI release date. Therefore, the STI
    Manager had visibility over each step in the review process. In contrast, the use of paper-
    based systems at Goddard and Marshall limited their (and our) visibility over the ongoing
    STI reviews because the STI Managers had no record of when a review was initiated or
    how many STI reviews were in process at any one time. In addition, since the Goddard
    and Marshall STI Managers were only provided copies of STI that had been fully
    approved, they had no knowledge of STI that was rejected at some point in the review
    process, nor could they effectively track or trend any historical data.

    Because neither the automated or paper-based systems would have a record of STI that
    had never been submitted for review, we performed a limited Internet search of NASA
    and NASA-sponsored conferences looking for publicly available conference
    presentations that might include unreviewed STI. Our search for unreviewed STI did not
    include Web sites for conferences that NASA scientists may have attended but which
    were not NASA or NASA-sponsored conferences. We also did not search scientific
    journals or other media for unreviewed STI. Had we done so, we may have identified
    additional STI that had been released without the required review.




6                                                                         REPORT NO. IG-08-017
RESULTS



  Centers with an Automated System. The automated systems used at Johnson and
  Langley allowed us to perform a more robust STI review because we could easily
  identify the review and release dates for all STI processed in FY 2005 and FY 2006. We
  were also able to identify STI that had been rejected for release at some point during the
  review process.

          Johnson. We identified 87 STI items that were released by Johnson personnel
  during FY 2005 and FY 2006 without obtaining the required reviews. Of those 87 items,
  64 were released prior to completion of the review process, 11 were released after
  rejection by one or more of the reviewing authorities, and 12 were never submitted for
  review.

          Our initial review of all records contained in Johnson’s automated system
  indicated that 478 of the 1,369 STI items released in FY 2005 and FY 2006 were either
  released prior to approval or after rejection. Because the STI authors or reviewers could
  have posted incorrect dates in the automated system, we performed an in-depth review to
  validate the dates for a discovery sample 12 of 160 of the 478 STI items. That in-depth
  review consisted of verifying the release date by obtaining a copy of the STI or
  contacting the STI author. Of those 160 STI items, we found that 55 had never been
  released or had incorrect dates in the automated system and, therefore, had not been
  inappropriately released. The release dates for another 30 items could not be verified
  because neither the STI nor the author could be located. We validated that Johnson
  personnel released the remaining 75 items without the required reviews. Of those
  75 items, 64 were released before the review process had been completed and 11 were
  released after being rejected. Those 75 STI and the 12 STI that we found on conference
  Web sites are the 87 items that we identified at Johnson as having been released without
  the required reviews.

          Langley. We identified 70 STI items that were released by Langley personnel
  during FY 2005 and FY 2006 without obtaining the required reviews. Of those 70 items,
  57 were released prior to completion of the review process, 8 were released after
  rejection by one or more of the reviewing authorities, and 5 were never submitted for
  review.

          Our initial review of all records contained in Langley’s automated system
  indicated that 441 of the 3,260 STI items released in FY 2005 and FY 2006 were either
  released prior to approval or after rejection. We then performed an in-depth review to
  validate the dates for a discovery sample of 153 of those 441 STI items. Of those
  153 STI items, 7 had incorrect dates in the automated system and the release dates for
  81 could not be verified: 12 because neither the STI nor the author could be located;

  12
       Discovery sampling methodology produces a minimal sample size and can be used to accept a population
       if the sample is error free. The use of discovery sampling allowed us to reduce the number of STI
       required for in-depth review at Johnson and Langley. If we had not identified errors within the discovery
       sample, we could have projected our results. Details concerning our sampling methodology are discussed
       in Appendix A.



REPORT NO. IG-08-017                                                                                               7
                                                                                       RESULTS



    68 because the STI was recalled by the author; and 1 because it was entered into the
    system as a test. We validated that Langley personnel released the remaining 65 items
    without the required reviews. Of those 65 items, 57 were released before the required
    review process had been completed and 8 were released after being rejected. Those
    65 STI items and the 5 that we found on conference Web sites are the 70 items that we
    identified at Langley as having been released without the required reviews.

    Centers with a Paper-Based System. The paper-based systems used at Goddard and
    Marshall limited our ability to evaluate all STI processed in FY 2005 and FY 2006. The
    Center STI Managers only maintained copies of STI and the Document Availability
    Authorization (NASA Form 1676) for approved STI items; consequently, we could not
    identify STI that had been rejected for release. We also could not identify STI that was
    still in the process of being reviewed but may have been released already. Because we
    did not have visibility over all STI submitted for review in FY 2005 and FY 2006, we
    used random sampling to select STI items for reviews.

            Goddard. We determined that Goddard personnel released 123 STI items
    without obtaining the required reviews during FY 2005 and FY 2006. The 123 STI
    comprise 114 projected STI items and 9 that we found through our Internet search. Our
    projection of 114 STI items was obtained by applying 5.2 percent to the 2,196 STI items
    maintained in the STI Manager’s file for FY 2005 and FY 2006. Using a random sample
    of 290 STI items, we validated that 15 (5.2 percent) had been released prior to
    completing the review process. The 114 projected STI items and the 9 that we found on
    conference Web sites are the 123 items that we identified at Goddard as having been
    released without the required reviews.

            Marshall. We determined that Marshall personnel released 133 STI items
    without obtaining the required reviews during FY 2005 and FY 2006. The 133 STI
    comprise 128 projected STI items and 5 that we found through our Internet search. Our
    projection of 128 STI items was obtained by applying 8.2 percent to the 1,556 STI items
    maintained in the STI Manager’s file for FY 2005 and FY 2006. Using a random sample
    of 280 STI items, we validated that 23 (8.2 percent) had been released prior to
    completing the review process. The 128 projected STI items and the 5 that we found on
    conference Web sites are the 133 items that we identified at Marshall as having been
    released without the required reviews.


STI Authors Not Notified of Review Process Completion

    The STI review process, as defined in NPR 2200.2B, does not require the Center STI
    Managers to notify authors that their STI was approved or rejected for release. We
    followed up with the STI authors who either had issued their STI before the review
    process was complete or had released STI after it had been rejected for release. The most
    common reason provided by those STI authors for releasing the STI was that they had
    assumed the STI was approved for release because they were never notified otherwise.


8                                                                        REPORT NO. IG-08-017
RESULTS



  Processes such as STI reviews should be “closed loop” processes. A closed loop process
  is one in which the process ends at the same point that it begins. Applied to an STI
  review, a closed loop process would require notification to the STI author that the STI
  was either approved or rejected for release. This would help prevent authors from
  releasing STI before it was adequately reviewed. Implementing a closed loop process
  can be accomplished by revising NPR 2200.2B to require Center STI Managers to
  develop and implement a process to notify STI authors as to whether their STI was
  approved or rejected for release. The NPR should also be revised to prohibit STI authors
  from releasing STI until notified of approval. Those revisions would remove uncertainty
  from the process and provide both STI Managers and authors a record of the STI’s
  approval or rejection.


STI Review Requirement Not Adequately Communicated

  Although NPR 2200.2B clearly states that the STI authors are responsible for ensuring
  that STI is adequately reviewed prior to being released, not all STI authors were aware of
  the requirement. We followed up with the authors who had publicly released STI without
  submitting it for review. Those authors told us that they were unaware of, had forgotten
  about, or had never been trained on the review requirement. While we could not
  specifically validate the authors’ level of awareness of the STI review requirement, none
  of the four Centers included in our audit had active programs designed to educate new
  employees or periodically brief existing employees about the STI review requirement.
  The lack of training is consistent with our finding in “NASA Should Improve Employee
  Awareness of Requirements for Identifying and Handling Sensitive But Unclassified
  Information” (IG-06-010-Redacted, May 9, 2006). We found that NASA personnel had
  not been adequately trained to identify and handle Sensitive But Unclassified
  information. Sensitive But Unclassified STI should be identified as such during the STI
  review process to ensure that it is not inadvertently disseminated.

  NPR 2200.2B states that the Center Directors are responsible for ensuring that Center
  personnel comply with the NPR and that the Center STI Managers are responsible for
  ensuring that Center personnel are aware of the STI policies and procedures. However,
  STI Managers at Goddard, Johnson, Langley, and Marshall generally relied on export
  control personnel to inform Center personnel about the STI review process during new
  employee orientation or other periodic export control briefings. To improve compliance
  with the STI review process, the Center STI Managers need to ensure that employees are
  aware of and fully understand the process and their associated roles and responsibilities.
  The Center Directors at Goddard, Johnson, Langley, and Marshall should work in
  conjunction with the STI Managers to develop and implement an awareness plan
  concerning the STI review process. That plan could include periodic Center-wide
  e-mails and required annual training that inform and educate STI authors on the
  requirements contained in NPR 2200.2B.




REPORT NO. IG-08-017                                                                           9
                                                                                              RESULTS



Effectiveness of STI Review Process Not Monitored

     Although STIPO monitored certain elements of the STI Program, its efforts were focused
     primarily on productivity and not the effectiveness of the STI review process.
     NPD 2200.1 requires that the effectiveness of the STI collection and dissemination
     process be monitored by use of the following metrics:

        •   Capture NASA STI – NASA will increase the quantity of NASA STI and non-
            NASA STI captured for the CASI database.

        •   Access and disseminate STI – NASA will track the number of primary and
            secondary distributions or access of STI, including electronic searches
            (e.g., Internet searches), to determine the usage of its products and services.

        •   Acquire external STI – NASA will compare the subject matter requirements of
            users against STI access to global sources (other agencies, domestic and
            international sources) in order to provide relevant information for NASA’s
            missions and programs.

        •   Measure customer satisfaction – NASA will routinely analyze user comments
            regarding the timeliness of service and usefulness of information.

     STIPO collects this data and reports it annually to the Agency. However, NPD 2200.1
     does not require STIPO to have metrics or other monitoring activities designed to
     measure the effectiveness of the STI review process. Because the review process is the
     primary method NASA has for ensuring that only approved STI is released, it is
     imperative that its effectiveness be monitored and that corrective action be taken in
     response to any problems identified. In conducting such monitoring activities, STIPO
     should work with the Center Directors and Center STI Managers to collect data
     concerning the review, approval, and release of STI. STIPO and the Centers should then
     be able to identify those authors who are not complying with NPR 2200.2B.


Agency-wide Automation Should Facilitate Monitoring

     The Centers with automated systems have access to more comprehensive and timely data
     with which to monitor the effectiveness of the STI review process. An automated system
     can be periodically queried to identify inappropriately released STI, while a paper-based
     system cannot. STI Managers using paper-based systems must review each individual
     NASA Form 1676 to identify inappropriately released STI, which, depending on the
     number reviewed, could be a time-consuming task. In addition, those STI Managers do
     not have a comprehensive data set because they are only provided copies of fully
     approved STI; they have no knowledge of STI that is still being reviewed or STI that was
     rejected at some point during the review.



10                                                                           REPORT NO. IG-08-017
RESULTS



  NASA’s CIO and STIPO began to address the automation issue and, in February 2007,
  commissioned a study of the automated STI review systems at Ames Research Center,
  Johnson, Langley, Stennis Space Center, and the Environmental Protection Agency. The
  study, which was issued June 28, 2007, recommended that NASA partially centralize the
  STI review and approval process to provide for maximum benefit at minimum cost. The
  study also recommended that NASA use the Ames automated system as a baseline and
  incorporate the user functionality of Langley’s system. Based on the results of the study,
  STIPO requested funding for a centralized STI automated system, the justification of
  which is a reduction in long-term program costs. STIPO has since adapted the Ames
  system for Agency-wide use, but STIPO’s baseline funding for FY 2009 will not allow
  for system rollout, maintenance, and implementation. As a result, STIPO initiated a
  request for overguidelines funding 13 for FY 2009 and beyond for the automation.

  The actions taken by STIPO to pursue an automated system will provide management
  with more complete and accurate data, which should improve the Agency’s ability to
  monitor the effectiveness of the STI review process. Improved monitoring should also
  decrease the number of NASA STI items released without proper review. In the draft of
  this report, we did not make a recommendation concerning an automated system because
  STIPO had requested the overguidelines funding. While we were preparing the final
  report, STIPO informed us that the CIO had denied that funding request. Therefore, we
  have added a recommendation in this final report (Recommendation 4) that the CIO
  determine how to best attain the intended benefits of an Agency-wide automated STI
  tracking system and provide an appropriate plan of action.


Increased Risk of Releasing Restricted or Sensitive STI

  Although we did not identify any restricted STI that was inappropriately released, we
  believe this area presents significant risk for NASA because authors can easily release
  STI without complying with the required review process. Each time NASA releases STI
  before it is appropriately reviewed, the risk of violating export control laws, national
  security regulations, or copyright restrictions increases. In addition, NASA does not
  have reasonable assurance that it is fully compliant with the laws and regulations
  governing the release of restricted information or with the Space Act. More significantly,
  noncompliance could result in the release of restricted STI to prohibited sources,
  including countries or persons, which could negatively impact national security.

  NASA strives for the widest practicable and appropriate dissemination of information
  concerning its activities and pursues ever-greater levels of partnership and cooperation in
  national and international space activities. However, “appropriate” dissemination
  encompasses the need for NASA to protect U.S. interests by reducing risk and restricting
  access to sensitive material, such as export-controlled technical data and industry

  13
       According to NASA management, overguidelines funding refers to funds that are above existing program
       financial guidelines.



REPORT NO. IG-08-017                                                                                          11
                                                                                                              RESULTS



     proprietary information. Compliance with the STI review process helps NASA achieve
     its mission while maintaining national security and limiting access to sensitive space
     technologies.


No Evidence to Support Suppression of Scientific Research within
  the STI Review Process

     We found no evidence that the STI review process at Goddard, Johnson, Langley, or
     Marshall was used as a means to suppress the results of scientific research, and therefore,
     the report contains no recommendations concerning this issue. Because the STI
     reviewing authorities could use the review process to suppress the results of scientific
     research by rejecting certain STI for public release, we surveyed 287 NASA STI authors
     concerning rejected STI. We also conducted further analysis of the 19 STI that we
     identified as having been rejected in FY 2005 and FY 2006 to consider whether STI on a
     specific topic or by an individual author had been disproportionately rejected.

     STI Author Survey. Our survey results did not indicate that the reviewing authorities
     were using the STI review process as a means to suppress the release of NASA’s
     scientific research. We elected to survey those authors who, based on our initial review
     of STI, appeared to have released STI prior to approval or after rejection, since we were
     already following up with those authors concerning those specific reviews. Of the
     287 authors surveyed, 264 responded to our questions (92 percent response rate).

     We asked the authors whether they had ever had an STI item rejected for public release.
     Of the 264 authors who responded, 96 responded “yes,” and 168 responded “no.” 14 We
     followed up with the 96 authors who responded yes to determine the reason for rejection
     and whether the author agreed with the reason given by the reviewing authority. All
     96 authors told us the STI was rejected because of errors on the submission form or the
     need to make minor technical revisions to the STI. Of the 96 authors, only 13 disagreed
     with the reason for rejection; however, the disagreements were based on the STI process
     itself (for example, the process took too long, the submission form was difficult to
     understand) or writing style differences between an author and the reviewing authority.
     None of the authors reported that they believed the reviewing authority had rejected the
     STI in an attempt to suppress the results of their research. 15 Therefore, based on our
     survey results, we could not support that a relationship existed between rejected STI and
     suppression of scientific research.


     14
          The 96 includes 18 authors who were unaware that their STI had been rejected for release until we
          notified them of the rejection.
     15
          A review published by the Government Accountability Office (GAO), “Federal Research: Policies
          Guiding the Dissemination of Scientific Research from Selected Agencies Should Be Clarified and Better
          Communicated” (GAO-07-653, May 2007), reported that NASA dissemination policies could be better
          communicated. GAO estimated that 91 percent of NASA researchers believe that the Agency supports
          dissemination of research results through publications.



12                                                                                        REPORT NO. IG-08-017
RESULTS



  Analysis of Rejected STI. Our analysis of the 19 STI items that we identified as
  rejected during FY 2005 and FY 2006 did not indicate that STI on a specific topic or by
  an individual author was disproportionately rejected. The titles of the STI varied greatly,
  including “Space Medicine,” “Wireless Communication and Interfaces Aboard the
  Spacecraft,” “A New Method for Acquiring Measurements,” and “Recertification of
  Liquid Oxygen (LOX) Run Tank.” We were unable to identify any trends that indicated
  a single topic or specific author’s work was routinely rejected for release.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Center Directors at Goddard, Johnson, Langley, and Marshall, in
coordination with the Center STI Managers, should establish and implement a plan to
increase awareness of the STI review requirements contained in NPR 2200.2B.

  Management’s Response. The Center Directors at Goddard, Johnson, Langley, and
  Marshall concurred with the recommendation, as described in the comments provided by
  the CIO (see Appendix C).

  Goddard will issue Center STI policy by October 7, 2008. The Goddard STI Program
  Office conducted outreach initiatives to promote awareness in May and August 2007 and
  planned a third initiative for April 2008. In addition, the Center STI Program Office is
  publishing a brochure for Center-wide distribution that will serve as an STI reference
  tool, focusing on key aspects of the STI Program. Additionally, in February 2008, the
  Center STI Program Office implemented a process to notify authors in writing if requests
  for authorization to distribute STI are incomplete or improperly prepared.

  Johnson disagreed with the number of STI items that we stated were released by Johnson
  authors prior to review or approval, but stated that Johnson continues to improve its
  automated tracking system and Center-wide awareness of STI review requirements.
  Johnson distributed articles on STI requirements, dated January 3 and 11, 2008, via a
  Center-wide e-mail and is implementing a plan to increase awareness that should be in
  place by October 7, 2008. Johnson expects to distribute regular articles on STI
  requirements, with a Web site link to an educational presentation on STI requirements;
  give an educational presentation quarterly; add STI education to new employee
  orientation; and meet directly with those organizations with the largest percentage of
  total STI items released.

  Langley has developed and will be implementing an STI awareness plan by October 7,
  2008. The plan includes the Langley Center Director issuing a Center-wide e-mail
  regarding STI requirements and the Langley STI Manager providing presentations to new
  employees.




REPORT NO. IG-08-017                                                                            13
                                                                                       RESULTS



     Marshall stated that it implemented an STI awareness plan in March 2008. Additional
     steps to increase awareness include a memorandum to all employees clarifying STI
     requirements, quarterly notices via “Inside Marshall” or Center-wide television, and
     required training.

     Evaluation of Management’s Response. We consider management’s proposed actions
     to be responsive. The recommendation is resolved, and we will close the
     recommendation after we verify that all actions have been completed.

     We did not revise the report based on Johnson’s disagreement with the number of STI
     items released prior to review or approval. The specific disagreement concerns the
     11 Johnson STI that were released after rejection. We had initially identified 12 such
     STI, but based on documentation provided by the Johnson STI Manager, we revised the
     number to 9 STI. We subsequently identified two additional STI items that were released
     after rejection, which accounts for the 11 STI cited in this report. We provided the
     Johnson STI Manager with detailed information on those STI items, but did not receive
     any response; therefore, we did not revise the report.

Recommendation 2. The CIO should revise NPR 2200.2B to require that Center STI
Managers timely notify STI authors as to whether their STI was approved or rejected for
release and to prohibit STI authors from publicly releasing STI before approval notification
is received.

Recommendation 3. The CIO should revise NPD 2200.1 to include “effectiveness of the
STI review process” as one of the annual performance measures used to determine whether
NASA is achieving compliance with the policy directive.

     Management’s Response to Recommendations 2 and 3. The CIO concurred with both
     recommendations, stating that the STI Program will issue a NASA Interim Directive by
     October 7, 2008, requiring timely notification of authors and instituting an annual
     performance measure to determine the effectiveness of the STI review process. In
     addition, both NPR 2200.2B and NPD 2200.1 will be updated in the next full regular
     revision to include these requirements.

     Evaluation of Management’s Response. We consider management’s proposed actions
     to be responsive. The recommendations are resolved and will be closed after we verify
     that all actions have been completed.

Recommendation 4. The CIO should determine how to best attain the intended benefits of
an Agency-wide automated STI tracking system and provide an appropriate plan of action to
do so.




14                                                                       REPORT NO. IG-08-017
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from September 2006 through April 2008 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We collected, reviewed, and analyzed NASA guidance pertaining to STI, to include
  NPD 2200.1, NPR 2200.2B, and Center supplements to that guidance. Three of the four
  Centers we visited had supplemental guidance: Johnson, Langley, and Marshall.
  Goddard follows the NPR.

  We met with personnel from STIPO to obtain an overview of the program, to gain an
  in-depth understanding of the STI review process, and to obtain an understanding of the
  CASI database. We met with the STI Managers at Goddard, Johnson, Langley, and
  Marshall to obtain an understanding of local STI policies and procedures. We also met
  with Directorate managers at those Centers to obtain an understanding of the procedures
  for rejecting the release of STI.

  We evaluated the STI review process at Goddard, Johnson, Langley, and Marshall. We
  evaluated Johnson’s process because the initial hotline complaint originated from
  Johnson personnel that were responsible for conducting the STI export control reviews.
  We evaluated the processes at Goddard, Langley, and Marshall because STIPO records
  indicated that those Centers consistently produced significant amounts of STI. Our
  evaluation and sampling procedures varied depending on whether the Center used an
  automated or a paper-based system to track the review process.

  To address the congressional request, we surveyed 287 STI authors concerning
  suppression of NASA research at the four Centers included in our audit. We also
  reviewed the 19 STI items at Johnson and Langley that were released after being rejected
  and searched for trends, such as high instances of rejection for any individual STI topic
  or author. The scope of this audit was limited to the STI review process that is required
  by NASA. This audit did not address specific allegations that NASA scientists were not
  allowed to express their views through public appearances or through NASA-sponsored
  press releases. These specific allegations were addressed in an administrative
  investigation and the results of that investigation were reported separately.




REPORT NO. IG-08-017                                                                          15
                                                                                          APPENDIX A



     Sampling Methodology. For Johnson and Langley, the Centers using an automated
     tracking system, we initially analyzed the review and approval dates for all STI processed
     in FY 2005 and FY 2006. We performed this analysis to identify STI that, according to
     the dates in the automated system, were released prior to the completion of the review
     process. Our initial analysis of the records contained in Johnson’s automated system
     indicated that 1,369 STI items were released in FY 2005 and FY 2006, and 478 of those
     appeared to have been released either prior to approval or after rejection. Our initial
     analysis of the records contained in Langley’s automated system indicated that 3,260 STI
     items were released in FY 2005 and FY 2006, and 441 of those items appeared to have
     been released either prior to approval or after rejection. To verify the results of our initial
     analysis, we applied the Discovery Acceptance Sampling Approach (discovery
     sampling), under the guidance of the Defense Contract Audit Agency.

     Discovery sampling is an acceptance sampling approach that produces a minimal sample
     size and can be used to accept a population if the sample is error free. This approach
     allowed us to obtain a statistical sample of only those items that appeared to have been
     released prior to approval, or after rejection, based on the information contained in the
     automated systems. We used EZ-Quant sampling software to determine the discovery
     sample size and to generate random numbers. We selected an error rate of 5 percent and
     a precision range of 5 percent, which generated a confidence level of 95 percent. Using
     discovery sampling methodology and the attributes mentioned above, we sampled 160 of
     the 478 STI items at Johnson. Of the 160 items we sampled at Johnson, we identified
     data errors with 55 items and were unable to verify the data for an additional 30 items.
     At Langley, we sampled 153 of the 441 STI items and identified data errors or were
     unable to verify the data for 88 items. We were unable to verify the data because we
     could not locate the author or obtain a copy of the STI, or the author recalled the STI.
     Because we could not verify the data for all of the sampled items, we could not project
     the results of the discovery samples.

     For Goddard and Marshall, the Centers using a paper-based process to review STI,
     we obtained a list of STI approved for release in FY 2005 and FY 2006 from the
     STI Managers and applied a statistical random sampling methodology to select specific
     STI for in-depth review. The in-depth review consisted of verifying the dates contained
     on the NASA Form 1676. We verified those dates by surveying the authors and
     obtaining copies of the STI items. At both Goddard and Marshall, we selected an error
     rate of 5 percent and a precision range of 5 percent, which generated a confidence level
     of 95 percent. During FY 2005 and FY 2006, Goddard approved 2,196 STI items for
     release and Marshall approved 1,556 STI items for release. Using random sampling, we
     selected for review 290 of Goddard’s 2,196 STI items and 280 of Marshall’s 1,556 STI
     items.

     To identify STI that had never been submitted for review, we selected 20 conferences
     held during FY 2005 and FY 2006 where NASA STI was released. We reviewed the
     conference agendas, abstract books, and program guides contained on the conference
     Web sites to identify NASA STI that may have been presented. We obtained the title,


16                                                                            REPORT NO. IG-08-017
APPENDIX A



  author’s name, and author’s Center for each item of NASA STI. When possible, we also
  obtained a copy of the STI. We limited our search to STI presented by NASA personnel
  who worked at Goddard, Johnson, Langley, or Marshall. To determine whether the STI
  had been submitted for review, we searched the Centers’ STI records and the CASI
  database. We also contacted the authors in some cases.

  Use of Computer-Processed Data. During the audit, we used computer-processed data
  from the CASI STI database and the Johnson and Langley automated systems. We
  primarily used the CASI database to obtain hardcopy documentation of STI items. We
  verified the data we obtained from CASI with outside sources. If we could not verify the
  data, the STI item was not included in our audit. We used the Centers’ automated
  systems to perform preliminary reviews, but verified system data with outside sources.
  We considered the data in the Johnson and Langley systems to be unreliable because of
  incorrect dates for STI approval and release that we identified. However, because we
  used only the information that could be verified, the reliability of the data does not affect
  our findings.


Review of Internal Controls

  To assess whether internal controls were adequate to identify and prevent the
  inappropriate release of STI, we reviewed controls over the STI review process at
  Goddard, Johnson, Langley, and Marshall. Specifically, we reviewed internal controls
  associated with STI submitted through the review process and controls associated with
  monitoring for STI that was never submitted through the process. We identified internal
  control weaknesses with communicating STI guidance, with notifying authors that the
  STI review process was completed, and with oversight activities that should ensure the
  STI review process is operating effectively. The internal control weaknesses are
  discussed in this report, and corrective actions taken in response to our recommendations
  should improve internal controls over the STI review process and oversight activities.


Prior Coverage

  During the last 5 years, GAO issued one report of particular relevance to the subject of
  our audit, “Federal Research: Policies Guiding the Dissemination of Scientific Research
  from Selected Agencies Should Be Clarified and Better Communicated” (GAO-07-653,
  May 2007). Unrestricted GAO reports can be accessed over the Internet at
  http://www.gao.gov.




REPORT NO. IG-08-017                                                                              17
                  APPENDIX B




     NASA FORM 1676




18       REPORT NO. IG-08-017
APPENDIX B




REPORT NO. IG-08-017   19
              APPENDIX B




20   REPORT NO. IG-08-017
APPENDIX B




REPORT NO. IG-08-017   21
                      APPENDIX C




     MANAGEMENT COMMENTS




22           REPORT NO. IG-08-017
APPENDIX C




REPORT NO. IG-08-017   23
              APPENDIX C




24   REPORT NO. IG-08-017
APPENDIX C




REPORT NO. IG-08-017   25
              APPENDIX C




26   REPORT NO. IG-08-017
APPENDIX C




REPORT NO. IG-08-017   27
              APPENDIX C




28   REPORT NO. IG-08-017
APPENDIX D




                                                      REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Chief Information Officer
  Head, Scientific and Technical Information Program Office
  Director, Goddard Space Flight Center
     Scientific and Technical Information Program Manager
  Director, Johnson Space Center
     Scientific and Technical Information Manager/Information Management Team Lead
  Director, Langley Research Center
     Scientific and Technical Information Manager
  Director, Marshall Space Flight Center
     Scientific and Technical Information Manager

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Defense, State, and NASA Financial Management, Office of Financial
        Management and Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Space, Aeronautics, and Related Sciences
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Management, Organization, and Procurement




REPORT NO. IG-08-017                                                                 29
                                                                APPENDIX D



Congressional Committees and Subcommittees, Chairman and
  Ranking Member (continued)

     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




30                                                     REPORT NO. IG-08-017
Major Contributors to the Report:
   Carol Gorman, Director, Space Operations and Exploration Directorate
   Paul Johnson, Project Manager
   Julia Eggert, Management Analyst
   Nicole Ellis, Management Analyst
   Jim Richards, Auditor
   Elizabeth Shifflett, Report Process Manager




REPORT NO. IG-08-017                                                      31
                                                                                      June 2, 2008
                                                                     REPORT No. IG-08-017




                                                                              OFFICE OF AUDITS

                                                               OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit www.hq.nasa.gov/office/oig/hq/audits/reports/FY08/index.html to obtain additional copies of this
report, or contact the Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Director of Quality
Assurance, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://www.hq.nasa.gov/office/oig/hq/hotline.html#form.
The identity of each writer and caller can be kept confidential, upon request, to the extent permitted
by law.
